Report No. DODIG-2013-076                    April 29, 2013




     Examination of Army Management's Assertion for
    Existence and Completeness of Operating Materials
              and Supplies Quick Win Assets
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
APSR                          Accountable Property System of Record
MIT                           Material-in-Transit
OASA(FM&C)                    Office of the Assistant Secretary of the Army (Financial
                                Management and Comptroller)
OM&S                          Operating Materials and Supplies
RTC                           Redstone Test Center
                                        INSPECTOR GENERAL
                                         DEPARTMENT OF DEFENSE
                                         4800 MARK CENTER DRIVE
                                      ALEXANDRIA, VIRGINIA 22350-1500




                                                                                     April 29, 20 13


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHiEF FINANCIAL OFriCER, DOD
               ASSISTANT SECRETA RY OF THE ARMY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)


SUBJECT: Examination of Army Management's Assertion for Existence and Completeness of
         Operating Materials and Supplies Quick Win Assets (Report No. DODJG-20 13-076)


We are providing this report for your in formation and use. No written response to this report is
required, and none was received. Therefore, we are publishing this report in its final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-8938.



                                    ~ f1. J.-,. -,
                                     Richard B. Vasquez, CPA
                                     Acting Assistant Inspector General
                                     Financial Management and Reporting
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER, DOD
               ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)


SUBJECT: Examination of Army Management’s Assertion for Existence and
         Completeness of Operating Materials and Supplies Quick Win Assets
         (Report No. DODIG-2013-076)

We examined management’s assertion of audit readiness1 for the existence,
completeness, and rights of the Department of the Army’s Operating Materials and
Supplies (OM&S) quick win assets. As a result of our review of Office of the Assistant
Secretary of the Army (Financial Management and Comptroller) (OASA[FM&C])
management’s assertion, we performed an examination of the existence, completeness,
and rights of the Army’s OM&S quick win assets, as of September 30, 2012. Our
examination solely focused on the universe provided by OASA(FM&C) and did not
determine whether the universe or accountable property systems of record (APSRs)
reconciled to the general ledger. Army management is responsible for its assertions of
audit readiness. Our responsibility is to express an opinion on the assertions based on our
examination.

We conducted our examination in accordance with attestation standards established by
the American Institute of Certified Public Accountants and with generally accepted
government auditing standards. Those standards require examining, on a test basis,
evidence supporting the Army’s assertions of audit readiness for the existence,
completeness, and rights of its mission critical assets and performing other procedures
we consider necessary. We believe that our examination provides a reasonable basis for
our opinion on management’s assertions.

The Army asserted audit readiness of its OM&S quick win assets, as of
September 30, 2012. These assets consisted of Hellfire, Javelin, and Tube-launched,
Optically-tracked, Wire-guided missiles. OASA(FM&C) officials provided the
September 30, 2012, OM&S quick win asset universe (the universe), which consisted of
95,406 missiles (see Table 1 in the attachment for a breakdown by missile type).

The Army asserted that the OM&S quick win assets in its APSRs existed (existence), the
missiles in its APSRs were materially complete (completeness) and it had the rights to
report the quick win assets in its APSRs (rights). We tested a nonstatistical sample of
1,065 missiles for existence, 334 missiles for completeness, and 213 missiles for rights2.




1
  Audit readiness per the December 2011 DoD Financial Improvement and Audit Readiness Guidance
Wave 3 – Mission Critical Asset Existence & Completeness Audit.
2
  The 213 missiles sampled for rights testing were part of the 1,065 missiles sampled for existence testing.
During our examination, we identified a deficiency related to the Army’s reporting of
missiles held at the contractor’s facilities. Specifically, the universe provided by the
Army included 5,684 missiles located at the contractor’s facilities. This universe was
overstated by approximately 4,600 missiles because the Joint Attack Munition Systems
Project Office personnel and contractor representatives stated that the contractor had
approximately 1,000 missiles at its facilities. OASA(FM&C) officials stated that the
overstatement occurred because of a processing error in recording the missiles in the
APSR. We could not perform existence, completeness, and rights testing on those
missiles because OASA(FM&C) officials were unable to provide a serialized list of the
5,684 missiles that they reported as located at the contractor’s facilities. However, we
performed existence and completeness testing on the contractor’s inventory system in
December 2012 and found their records to be accurate and complete as of that date. As
a result, we concluded that this was a reporting issue that needed to be fixed, not an
accountability issue. U.S. Army Aviation and Missile Command personnel reconciled
the records and implemented corrective actions to ensure the overstatement does not
occur in the future.

We also identified a deficiency related to the reporting of 3,493 missiles classified as
material-in-transit (MIT). OASA(FM&C) officials explained that, because of system
limitations, MIT was not reported in an APSR and was not included in the universe.
During our review, we analyzed shipping and receiving documents demonstrating that
there were controls in place to track MIT. However, MIT was reported at the summary
level and OASA(FM&C) officials could not provide a serialized list of MIT, as of
September 30, 2012. As a result, we could not perform existence, completeness, and
rights testing on MIT. Consequently, we could not attest to the accuracy of MIT.

In our opinion, except for the reporting deficiencies associated with missiles held at the
contractor’s facilities and MIT described in the preceding paragraphs, the Army’s
assertion of audit readiness for the existence, completeness, and rights of its OM&S
quick win assets, as of September 30, 2012, is fairly stated in all material respects in
accordance with DoD Financial Improvement and Audit Readiness Guidance
Wave 3-Mission Critical Asset Existence & Completeness Audit.

Internal Controls
Internal controls are important for safeguarding assets. Management designs internal
controls to provide reasonable assurance that unauthorized acquisition, use, or disposition
of assets will be prevented or detected and corrected in a timely manner. During our
examination, we identified internal control deficiencies, but they did not preclude us from
reaching an opinion regarding the Army’s assertion. However, management should
consider additional actions to improve the internal controls to ensure the sustainability of
its processes in accounting for the existence and completeness of its OM&S quick win
assets.

We identified the following internal control deficiencies.

      The Army did not establish an APSR for missiles held at the contractor’s facilities
       and at the Redstone Test Center (RTC) in Huntsville, Alabama. DoD Instruction
                                             2
Attachment. September 30, 2012, Total OM&S
Quick Win Asset Universe
OASA(FM&C) personnel provided the September 30, 2012, OM&S quick win asset
universe, which consisted of 95,406 missiles. The following table shows the universe.

       Table 1. Significance of Missile Type in September 30, 2012, Universe

 Missile Type                                 Assets in Universe         Percentage of Total

 Hellfire                                              28,533                    30

 Javelin                                               18,507                    19

 TOW*                                                  48,366                    51

    Total                                              95,406                   100
*TOW   Tube-launched, Optically-tracked, Wire-guided



We could not perform existence, completeness, and rights testing for 5,684 missiles held
at the contractor’s facilities and 3,493 missiles for MIT because OASA(FM&C)
personnel could not provide serial numbers for those assets. The following table shows
the significance of these missiles.

       Table 2. Significance of Missiles at the Contractor’s Facilities and MIT

                                 Assets at the
                                 Contractor’s
 Missile Type                     Facilities                    MIT         Number of Assets

 Hellfire                               5,108                   1,675             6,783

 Javelin                                  576                      541            1,117

 TOW*                                         0                 1,277             1,277

    Total                               5,684                   3,493             9,177
*TOW   Tube-launched, Optically-tracked, Wire-guided




                                                        4
